Secured MasterCard® - Disclosure Summary
Important information about this Credit Card
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

18.15% when you open your account.

APR for Balance
Transfers

This APR will vary with the market based on the Prime Rate.
18.15% when you open your account.

APR for Cash Advances

This APR will vary with the market based on the Prime Rate.
21.15%, when you open your account.

Penalty APR

This APR will vary with the market based on the Prime Rate.
None

How to Avoid Paying
Interest on Purchases

Your due date is at least 26 days after the close of each billing cycle. We will not charge you any
interest on purchases if you pay your entire balance by the due date each month.

Minimum Interest
Charge
For Credit Card Tips from
the Consumer Financial
Protection Bureau

Not applicable

Fees
Annual Fee

To learn more about factors to consider when applying for or using a credit card, visit the website of
the Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

$48
The Annual Fee will be assessed during the first billing cycle.

Transaction Fees
 Balance Transfer
 Cash Advance
 Foreign Transaction
Penalty Fees
 Late Payment
 Returned Payment

None
Either $5 or 3% of the amount of each cash advance, whichever is greater.
2% of each transaction in U.S. Dollars.
Up to $25*
Up to $35

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
How We Will Calculate Your Variable APR: Unless an introductory or promotional APR is in effect, we will add a “Margin” to an “Index Rate” to determine
your standard variable rate. The Index Rate will be equal to the U.S. Prime Rate (“Prime Rate”) in the Money Rates section of The Wall Street Journal
published on the last day of the previous calendar month before the Closing Date shown on your billing statement.
* If your Total Minimum Payment Due is not received by your Payment Due Date, a Late Payment Fee of $25 will be assessed. However, the Late Payment
Fee will not exceed the total minimum payment that was due.
All account terms are governed by the Cardmember Agreement and Secured Credit Card Addendum. Account and Agreement terms are not guaranteed
for any period of time. By signing and/or submitting the secured card application you understand that the amount deposited by you will be used as collateral
to secure the obligations to the Bank that you incur from time to time in connection with your Secured Card Account. THE SECURED DEPOSIT ACCOUNT
DOES NOT EARN INTEREST. The Bank does not send statements for the Secured Deposit Account. The Secured Deposit Account is not payable at a specific
date or after a specified period of time. In accordance with the agreement and applicable law, the Bank may change these terms at any time by adding
new terms or deleting or amending current terms.
07-2021

